RONALD G. WHITEHOUSE
Petitioner
V.

THE UNITED STATES OF AMERICA

MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS

The Petitioner, RONALD G. WHITEHOUSE, by and through his appointed
counsel asks leave to file the attached Petition for Writ of Certiorari without
prepayment of cost and to proceed in forma pauperis. Petitioner has previously
been granted leave to so proceed in the United States District Court for the
Northern District of Texas, Fort Worth Division and in the United States Court of
Appeals, Fifth Circuit.

Petitioner’s documents in support of this Motion are

attached hereto.

/s/RONALD G. COUCH
RONALD G. COUCH
5005 Colleyville Blvd.
Suite 217
Colleyville, Texas 76034
817-514-4918
817-514-4919Facsimile
SBOT No. 0485600
Attorney for Petitioner
ronaldcouch@juno.com

